   MEMORANDUM


   TO:          XXXXXXXX
                Division Director
                Division of Grants and Agreements

                XXXXXXXXXXXX
                XXXXXXXXXX
                Division of Institution and Award Support

   FROM:        XXXXXXXXXX
                Associate Inspector General for Audit

   SUBJECT: NSF OIG Audit Report No. OIG-04-1-008, Financial and Compliance
            Audit of Northwest Indian College

Attached is the financial and compliance report prepared by Foxx & Company, a
Certified Public Accounting Firm, on the audit of NSF grant numbers DUE-9752076,
DUE-0053303, and ESR-0086186 awarded to Northwest Indian College (NWIC). The
audit covers costs incurred from September 1, 1997 through December 31, 2001. We
identified four material internal control weaknesses in NWIC’s grant administration
practices and questioned the entire $1,115,306 in direct costs claimed by NWIC for the
three awards. We have also questioned all of the $35,534 cost sharing required for the
closed Award Number DUE-9752076 and have identified the remaining $141,114 as cost
sharing at risk for Award Number DUE-0053303, which was still in process at the
conclusion of our audit.

The internal control weaknesses identified in the report were that NWIC did not maintain
supporting documentation for the costs charged to the NSF awards, track expenditures for
the NSF awards, segregate financial duties properly and reconcile bank statements. As a
result, a disclaimer of opinion was issued because the auditor was unable to determine
whether the total $1,115,306 of the claimed costs was actually incurred or that the costs
benefited NSF’s awards. We believe these material internal control weaknesses and other
issues identified during the audit are systemic and are likely to affect ongoing and future
NSF awards. Accordingly, NSF should recognize NWIC as a high risk grantee under its
Risk Management Program and take immediate steps to ensure that NWIC institutes internal
controls that ensure that all costs claimed to the NSF awards are properly and accurately
accounted for in its accounting system and are supported with adequate documentation. In
addition, future awards to NWIC should not be made until NSF has verified that NWIC has
implemented corrective actions on these control deficiencies.

We are providing a copy of this memorandum to the Division Directors of the Divisions of
Undergraduate Education and Human Resource Development. The responsibility for audit
resolution rests with the Division of Institution and Award Support, Cost Analysis/Audit
Resolution Branch (CAAR). Accordingly, we ask that no action be taken concerning the
report's findings without first consulting with CAAR at (703) 292-8244.

We consider the issues in the audit report to be significant. Accordingly, to help ensure
findings are resolved within six months of issuance of the audit report, please coordinate
with our office during the resolution period to develop a mutually agreeable audit resolution
memorandum.

We thank your staff for the assistance that was extended to us during the audit. If you
have any questions about this report, please contact XXXXXXXXXXXXXXXXXX
XXXXXXXXXXXXXXXX.


Attachment


cc: XXXXXXXXXXXX, BFA
    XXXXXXXXXXXXXX, EHR /DUE
    XXXXXXXXXXXXXX, EHR/HRD
September 30, 2004



XXXXXXXXXXXX
XXXXXXXXXXXXXXXXXXXX
Office of Inspector General
Room 1135
National Science Foundation
Office of Inspector General
4201 Wilson Boulevard
Arlington, Virginia 22230

Dear XXXXXX:

Enclosed is a copy of the final report for the audit of NSF Grant Numbers DUE-9752076, DUE-
0053303 and ESR-0086186, awarded to the Northwest Indian College, Bellingham, Washington.
We have incorporated a summary of the awardee’s April 21, 2004 and September 23, 2004
written comments into the body of the report and provided responses where appropriate.
Because of the voluminous size of the written response, only the letters transmitting and
summarizing the responses are included in Appendix A. The entire text of the awardee’s
response is available from the NSF-OIG.

If you have any questions, please contact me at XXXXXXXX.

Sincerely,

FOXX & COMPANY

       XXXXXXXXXXXXXXX
       XXXXXXXXXXXX


XXXXXXXXXX
XXXX

XXXXXXXX

Enclosures
 NORTHWEST INDIAN COLLEGE
BELLINGHAM, WASHINGTON 98226

NATIONAL SCIENCE FOUNDATION
 AWARD NUMBERS DUE-9752076
  DUE-0053303, AND ESR-0086186

   FINANCIAL SCHEDULES AND
INDEPENDENT AUDITORS’ REPORTS
             for the period
 September 1, 1997 – December 31, 2001




                               Foxx & Company
                               700 Goodall Complex
                               324 West Ninth Street
                               Cincinnati, Ohio 45202-1908
                     XXXXXXXXXXXX
                    XXXXXXXXXXXXXX



XXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXX
XXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXX
XXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXX
XXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXX
XX
                                        Northwest Indian College
                                      Bellingham, Washington 98226
                                               TABLE OF CONTENTS

                                                                                                                                  PAGE
Executive Summary

      Background ..................................................................................................................... 1

      Audit Objectives, Scope, and Methodology ................................................................... 2

      Summary of Audit Results.............................................................................................. 2

      Follow-up of Prior Audit Findings ................................................................................. 5

      Exit Conference .............................................................................................................. 6

Audit Findings and Recommendations

      Independent Auditors’ Report on Financial Schedules .................................................. 7

      Independent Auditors’ Report on Internal Controls Over Financial Reporting and
      Compliance with Laws and Regulations....................................................................... 10

Financial Schedules and Supplemental Information

      Schedule A-1 Schedule of Award Costs - (DUE-9752076) ......................................... 26

      Schedule B-1 Schedule of Questioned Costs - (DUE-9752076) ................................. 27

      Schedule A-2 Schedule of Award Costs - (DUE-0053303) ......................................... 33

      Schedule B-2 Schedule of Questioned Costs - (DUE-0053303) ................................. 34

      Schedule A-3 Schedule of Award Costs - (ESR-0086186) .......................................... 40

      Schedule B-3 Schedule of Questioned Costs - (ESR-0086186) .................................. 41

      Schedule C-1 Summary Schedules of Awards Audited and Audit Results ................. 45

      Schedule D Summary of Award Costs Budgeted, Claimed, and Questioned .............. 47

      Notes to the Financial Schedules ................................................................................. 48

      Appendix A – Awardee’s Comments .......................................................................... 50
EXECUTIVE SUMMARY
National Science Foundation
Office of Inspector General
4201 Wilson Boulevard
Arlington, Virginia 22230

EXECUTIVE SUMMARY

BACKGROUND



We were engaged to audit the funds awarded by the National Science Foundation (NSF) to the
Northwest Indian College (NWIC) under three awards, numbers DUE-9752076, DUE-0053303,
and ESR-0086186 for the period September 1, 1997 to December 31, 2001. Northwest Indian
College, as a federal awardee, is required to follow the cost principles specified in the Office of
Management and Budget (OMB) Circular A-21, Cost Principles for Educational Institutions and
Federal administrative requirements contained in OMB Circular A-110, Uniform Administrative
Requirements for Grants and Agreements with Institutions of Higher Education, Hospitals, and
Other Non-Profit Organizations.

NWIC is a two-year accredited tribal college located on the Lummi Reservation in Bellingham,
Washington. Descriptions of the three NSF grant awards audited are as follows:

Grant Award DUE-9752076 - The objective of this grant was to develop and test an advanced
technical education program in Native American Environmental Technology for a two-year
degree. The grant model consisted of curricula development, pilot testing student internships,
and articulation agreements with four-year institutions. Program methods were created and
developed specifically to support Native American learning styles, and to help develop and
transfer technical skills that could lead to meaningful career employment in the area of
environmental science and management.

Under this agreement, NSF awarded NWIC $775,049 and NWIC agreed to cost share $35,534.
The period covered by the award and the audit was September 1, 1997 to August 31, 2000. The
awardee claimed the entire $775,049 of NSF funding as shown on its Federal Cash Transaction
Report (FCTR) and did not claim any cost sharing expenses.

Grant Award DUE-0053303 - The objective of this award was to continue with the objectives of
Award No. DUE-9752076 and expand the pilot program started under Award No. DUE-9752076
to a four-year degree program in environmental sciences.




                                                1
Under this agreement, NSF awarded NWIC $589,343 and NWIC agreed to cost share $141,114.
The award period was September 1, 2000 to August 31, 2003. Our audit period was from
September 1, 2000 to December 31, 2001. As of December 31, 2001, the awardee had claimed
$277,484 of NSF funding as shown on its FCTR and did not claim any cost sharing expenses.

Grant Award ESR-0086186 - The objective of this award was to maintain a comprehensive and
sustainable systemic reform effort in mathematics, science, and technology for NWIC’s service
area. The primary goal of the grant was to establish a center for surrounding schools that would
provide comprehensive services in a systemic reform of mathematics, science and technology.

Under this agreement, NSF awarded NWIC $100,000. The period of the award and the audit
was September 1, 2000 to August 31, 2001. No cost sharing was required. The awardee claimed
$62,773 of the total NSF award as shown on its FCTR.

AUDIT OBJECTIVES, SCOPE, AND METHODOLOGY

The objectives of our audit engagement were to determine if:

       1.   Costs charged to the NSF awards by NWIC are allowable, allocable, and reasonable
            in accordance with applicable Federal cost principles and NSF award terms and
            conditions; and

       2.   The awardee’s systems of internal controls are adequate to properly administer,
            account for, and monitor its NSF awards in compliance with NSF and Federal
            requirements.

We were engaged to conduct an audit in accordance with auditing standards generally accepted
in the United States of America, Government Auditing Standards, (1999 Revision) issued by the
Comptroller General of the United States, and the National Science Foundation Audit Guide
(September 1996), as applicable, and have issued our report thereon dated January 31, 2002.
Accordingly, we planned and attempted to perform the audit to obtain reasonable assurance
about whether the amounts claimed to NSF as presented in the Schedules of Award Costs
(Schedules A-1 through A-3) are free of material misstatements. Our audit efforts assessed the
accounting principles used and significant estimates made by NWIC and evaluated the overall
financial schedule presentation.

To achieve our audit objectives, we examined, on a test basis, evidence supporting the amounts
claimed for the awards in the Schedules of Award Costs (Schedules A-1 through A-3).
However, significant amounts of documents were missing and unavailable as explained in the
Summary of Audit Results Section of this report. Consequently, we were unable to test
significant portions of claimed costs necessary to meet our objectives.

SUMMARY OF AUDIT RESULTS

We were unable to determine whether material amounts of claimed costs and cost sharing that
NWIC charged to NSF Award Numbers DUE-9752076, DUE 0053303, and ESR-0086186 were
allowable, allocable, and reasonable in accordance with applicable Federal cost principles and
NSF award terms and conditions. For these reasons, we were unable to express an opinion on


                                               2
the claimed costs on any of the three awards and cost sharing on two of the awards. We
questioned a total of approximately $1.1 million of the NSF funded costs and approximately
$35,000 of cost sharing and identified another approximately $141,000 of “at-risk” cost sharing.1

NWIC could not provide adequate source documentation to support the total amount of costs
claimed for any of the three awards or show that they had provided any required cost share to the
NSF awards. Specifically:

    •    NWIC did not maintain time and effort or other documentation supporting its claims for
         salaries, wages, and fringe benefits, which represent approximately $670,000 or 60
         percent of the total claimed-costs for these awards.

    •    NWIC could not provide adequate documentation to support the allowability of
         $444,635 in non-payroll costs. We sampled transactions for the categories of equipment,
         consultant costs, travel, and materials and supplies with a value of approximately
         $117,000, representing approximately 96 percent of the total costs claimed in these four
         categories and about 10 percent of the total costs claimed. NWIC was unable to provide
         documentation showing that these non-payroll expenditures benefited the NSF funded
         projects. The remaining 30 percent of untested non-payroll expenditures largely included
         indirect costs associated with the questioned direct costs and direct costs claimed in
         excess of the amounts expended according to NWIC’s accounting records.
.
    •    NWIC could not provide documentation to support any of the $176,648 of cost sharing
         required at the time of our audit. In addition, NWIC did not account for cost sharing
         separately from direct funded expenditures. NWIC claimed that it had cost shared
         employee time to the NSF projects, however, it was unable to show that any labor costs
         had been expended on the projects except the labor costs that were already charged
         directly to the awards.

We identified material deficiencies in NWIC’s internal controls for administering NSF awards.
NWIC could not provide source documentation to support costs or cost share charged to the NSF
awards and had not established an adequate financial management system for recording or
documenting the receipt and expenditure of funds under projects supported by the NSF awards.

We found that NWIC could not match its expenditures by budget category to amounts it had
proposed to NSF or describe the methodology it used to crosswalk the costs to NSF budget
categories. As a result, NWIC could not demonstrate that the costs claimed benefited the NSF
awards; readily prepare the Schedules of Award Costs (indicating what types of expenditures
were incurred under the NSF awards); or reconcile its expenditures with the amounts reported on
its quarterly Federal Cash Transaction Reports (FCTRs). In addition, NWIC did not comply
with Federal and NSF award terms and conditions relating to financial management standards,
property and procurement standards, segregation of duties and bank statement reconciliations.

These conditions occurred because of material deficiencies in NWIC’s financial management
system for administering NSF award funds. NWIC maintained no written rules or guidance for
1
  Cost sharing is identified as “at risk” if an awardee is lagging in meeting its cost sharing obligation for an award
that is still active.


                                                           3
accounting for or reporting on the status of its NSF awards. NWIC also did not prepare or keep
source documentation evidencing how it used NSF funds and officials stated that its personnel
did not understand NSF and Federal grant regulations. NWIC’s management indicated there was
an overall lack of knowledge of federal and NSF award requirements at the time the awards were
performed.
As a result, NWIC was unable to ensure that NSF funds were scrutinized for allowability of costs
or used for their intended purposes. Further, the lack of documentation and inadequate policies
and procedures to timely and accurately account for and report on the status of NSF funds creates
a high risk that fraud and/or abuse could occur and not be detected.

The pervasiveness of the financial management deficiencies at NWIC suggest an overall control
environment at NWIC that warrants immediate corrective action toward establishing good
internal controls and compliance with federal award terms and conditions. Until the corrective
actions recommended in this report are addressed, NSF has little or no assurance that NWIC has
and will spend NSF award funds on authorized purposes. NWIC’s lack of adequate accounting
systems and written policies and procedures for its NSF award financial activities place NWIC’s
awards at a high risk that misstatements, in amounts that would be material in relation to the
Schedules of Award Costs (Schedules A-1 through A-3), may occur and not be detected.

For these reasons, we were unable to express an opinion on NWIC’s claimed costs and cost
share, and have therefore, questioned all of the approximately $1.1 million of NSF-funded costs
and all of the approximately $35,000 of required cost share, and identified the remaining
approximately $141,000 as cost sharing at risk. Questioned costs are (1) costs for which there is
documentation that the recorded costs were expended in violation of the law, regulations or
specific conditions of the award, (2) costs that require additional support by the awardee, or (3)
costs that require interpretation of allowability by NSF – Division of Institution and Award
Support. Cost sharing is identified as “at risk” if an awardee is lagging in meeting its cost
sharing obligation for an award that is still active.

We recommend that the NSF Directors of the Divisions of Institution and Award Support and
Grants and Agreement designate NWIC as a “high risk” awardee under its risk management
program. In addition, NSF should direct NWIC to establish and prepare written procedures that
document the system to account for the receipt and expenditure of NSF funds and cost share;
develop written policies and procedures to ensure that FCTR submissions and award funds,
including participant support costs, are monitored to ensure that only allowable expenditures are
charged to the award and that award funds are used only for the purposes of the award; require
employees working on federally funded projects to complete labor activity reports supporting the
level of labor effort expended on each award; reassign duties to achieve better segregation of
duties in the payroll and accounts payable processes; reconcile monthly bank statements to
accounting records; provide grant management training for NWIC personnel involved in
managing NSF awards; develop written procedures for managing the NSF project and claimed
costs with supporting documentation in accordance with NSF and Federal requirements,
including standards for property management and procurement; and assure that cost sharing is
met.

NWIC officials stated that the issues noted in the draft report and findings have been corrected,
although we did not verify that the conditions were corrected. NWIC also provided written


                                                4
reviews performed by its CPA firm stating that the problems had been resolved. NWIC officials
did not respond to the questioned costs because they stated there were not sufficient details to
comment on the individual items questioned. Therefore, the auditors provided additional detail
to NWIC, which identified the individuals whose salary charges to the NSF projects were
questioned. However, again NWIC did not provide documentation supporting the questioned
costs. Therefore, all costs questioned in the draft report remain questioned in the final report.
NWIC’s response has been summarized within the body of the report. The NWIC letters dated
April 21, 2004 and September 23, 2004, responding to the draft report have been included in
Appendix A. Appendices A-D, included in NWIC’s comments, contain materials related to the
corrective actions it had taken with regard to policies, procedures and practices newly instituted
at NWIC to address internal control and compliance issues. We understand that these items were
prepared in response to the 2003 OMB Circular A-133 audit report. Because these materials are
voluminous, they are contained in a separate volume of this report and are available upon request
from the NSF OIG.

For a complete discussion of each finding, refer to the Independent Auditors’ Report on Internal
Control Over Financial Reporting and Compliance with Laws and Regulations.

FOLLOW-UP OF PRIOR AUDIT FINDINGS

Northwest Indian College has had single audits performed in accordance with Government
Auditing Standards and OMB Circular A-133, Audits of States, Local Governments, and Non-
Profit Organizations, for the years ended June 30, 1997 through 2000. However, the three grant
awards included in this NSF audit were not tested as a major program for the years ended June
30, 1997 through 2000. These audit reports contained findings related to all Federal awards
including the NSF awards DUE-9752076, DUE-0053303, or ESR-0086186. The reported
findings stated that NWIC had inadequate internal controls for the payroll processing and
accounts payable functions and lacked a property management system.

Subsequent to our audit fieldwork, a Single Audit for the period July 1, 2001 through June 30,
2002 was issued on October 22, 2003. Because Single Audits are due nine months after the
close of the fiscal year, this audit was seven months late. The scope of this audit included Award
No. DUE-0053303 as a major program. This report disclosed that the Awardee was not
documenting its cost sharing for the NSF awards. The report questioned $58,000 in cost sharing
because NWIC could not show that it provided any of the required cost share for DUE-0053303.
Furthermore, similar internal control problems in the payroll and accounts payable areas reported
in the previous Single Audit and in our audit were still present.




                                                5
EXIT CONFERENCE

An exit conference was held on January 31, 2002 at the Northwest Indiana College’s office in
Bellingham, Washington.

We discussed findings and recommendations contained in this report, as well as other
observations, with those attending:

              Representing NWIC were personnel in the following positions:

              Name                                 Title
              XXXXXXXXX                            XXXXXXX
              XXXXXXXXXX                           XXXXXXXXXXXXXX
              XXXXXXXXXX                           XXXXXXXXXXXXXX
              XXXXXXXXXXXX                         XXXXXXXXXXXXXXXX


              Representing Foxx & Company:

              Name                                     Title
              XXXXXXXXXXXX                             XXXXXXXX
              XXXXXXXXXXXX                             XXXXXXXX
              XXXXXXXX                                 XXXXXXXX




                                               6
AUDIT FINDINGS AND RECOMMENDATIONS
National Science Foundation
Office of Inspector General
4201 Wilson Boulevard
Arlington, Virginia 22230

         INDEPENDENT AUDITORS' REPORT ON FINANCIAL SCHEDULES

We were engaged to audit the costs claimed by the Northwest Indian College (NWIC) to the
National Science Foundation (NSF) on the Federal Cash Transactions Reports (FCTR) - Federal
Share of Net Disbursements for the NSF awards listed below. In addition, we were also engaged
to audit the amount of cost sharing claimed for the awards. The Federal Cash Transactions
Reports, as presented in the Schedules of Award Costs (Schedules A-1 through A-3), are the
responsibility of the Northwest Indian College’s management.

              Award Number              Award Period              Audit Period
                                   September 1, 1997 to       September 1, 1997 to
           DUE-9752076
                                   August 31, 2000            August 31, 2000
                                   September 1, 2000 to       September 1, 2000 to
           DUE-0053303
                                   August 31, 2003            December 31, 2001
                                   September 1, 2000 to       September 1, 2000 to
           ESR-0086186
                                   August 31, 2001            August 31, 2001

We were unable to determine whether $1,115,306 in total costs claimed, $35,534 in required cost
sharing and the remaining $141,114 in “at-risk” cost sharing included in the Schedules of Award
Costs (Schedules A-1 through A-3) for NSF Award Numbers DUE-9752076, DUE 0053303, and
ESR-0086186 were allowable, allocable, and reasonable in accordance with applicable Federal
cost principles and NSF award terms and conditions. This occurred because NWIC was unable
to provide adequate source documentation to support the total claimed costs for all three awards
and cost sharing for two awards.

NWIC was unable to provide source documentation for $670,671 in payroll and related benefit
costs and $444,635 in non-payroll costs for these three awards. Specifically, salary and related
fringe benefit costs we tested, totaling approximately 15 percent of the payroll costs, were not
supported by time and effort reports. NWIC did not have time and effort reporting for the
individuals we tested and the balance of the payroll and benefit costs were for most of the same
individuals who were included in our sample. Therefore, we questioned all of the payroll and
related benefit costs. Non-personnel costs we tested, representing approximately 42 percent of
the total claimed costs, were not supported by source documentation identifying the expenditures
as benefiting NSF’s grants. NWIC did not have adequate documentation (such as invoices,
purchase orders, receipts and purchase requisitions) for non-payroll costs. The remaining
                                                7
untested non-payroll expenditures largely included indirect costs associated with the questioned
direct costs and direct costs claimed in excess of the amounts expended according to NWIC’s
accounting records. NWIC officials stated that they were not aware of the federal financial
management requirements for documenting costs incurred under NSF awards.

Since NWIC could not provide source documentation to support the total amount claimed to
NSF and we were unable to apply other auditing procedures to satisfy ourselves concerning the
allowability, reasonableness and allocability of expenditures NWIC claimed and cost share; the
scope of our work was not sufficient to enable us to express, and we do not express, an opinion
on the Schedules of Award Costs (Schedules A-1 through A-3).

Accordingly, we have questioned the entire $1,115,306 in direct costs claimed by NWIC for the
three awards. We have also questioned all of the $35,534 cost sharing required for the closed
Award Number DUE-9752076 and have identified the remaining $141,114 as cost sharing “at
risk” for Award Number DUE-0053303, which was still in process at the conclusion of our audit.

Questioned costs are (1) costs for which there is documentation that the recorded costs were
expended in violation of the law, regulations or specific conditions of the award, (2) costs that
require additional support by the awardee, or (3) costs that require interpretation of allowability
by NSF – Division of Institution and Award Support. The National Science Foundation will
make the final determination regarding whether such costs are allowable. The ultimate outcome
of this determination cannot presently be determined. Accordingly, no adjustment has been
made to costs claimed for any potential disallowance by NSF. Cost sharing is identified as “at
risk” if an awardee is lagging in meeting its cost-sharing obligation for an award that is still
active.

The accompanying financial schedules were prepared in conformance with the requirements of
the National Science Foundation Audit Guide (September 1996) as described in the Notes to the
Financial Schedules, and are not intended to be a complete presentation of financial position in
conformity with accounting principles generally accepted in the United States of America.

In accordance with Government Auditing Standards and the National Science Foundation Audit
Guide, we have also issued a report dated January 31, 2002 on our tests of NWIC’s compliance
with certain provisions of laws, regulations, and the NSF award agreements and our
consideration of NWIC’s internal control over financial reporting. The Independent Auditors’
Report on Compliance with Laws and Regulations and Internal Control Over Financial
Reporting is an integral part of an audit performed in accordance with Government Auditing
Standards and should be read in conjunction with this report in considering the results of our
audit.




                                                8
This report is intended solely for the information and use of the Northwest Indian College’s
management, the National Science Foundation, NWIC’s Federal cognizant agency, the Office of
Management and Budget, and the Congress of the United States of America, and is not intended
to be, and should not be used by anyone other than these specified parties.

Foxx & Company




Cincinnati, Ohio
January 31, 2002




                                             9
National Science Foundation
Office of Inspector General
4201 Wilson Boulevard
Arlington, Virginia 22230


     INDEPENDENT AUDITORS’ REPORT ON INTERNAL CONTROL OVER
 FINANCIAL REPORTING AND COMPLIANCE WITH LAWS AND REGULATIONS

We were engaged to audit the costs claimed as presented in the Schedules of Award Costs as
presented in Schedules A-1 through A-3, which summarize the financial reports submitted by
Northwest Indian College (NWIC) to the National Science Foundation (NSF) and claimed cost
sharing for the awards listed below, and have issued our report thereon dated January 31, 2002.


              Award Number            Award Period              Audit Period
                                 September 1, 1997 to      September 1, 1997 to
              DUE-9752076
                                 August 31, 2000           August 31, 2000
                                 September 1, 2000 to      September 1, 2000 to
              DUE-0053303
                                 August 31, 2003           December 31, 2001
                                 September 1, 2000 to      September 1, 2000 to
              ESR-0086186
                                 August 31, 2001           August 31, 2001

We did not express an opinion on the Schedules of Award Costs because we were unable to
determine whether $1,115,306 in total costs claimed, $35,534 in required cost sharing and the
remaining $141,114 in “at-risk” cost sharing included in the Schedules of Award Costs
(Schedules A-1 through A-3) for NSF Award Numbers DUE-9752076, DUE-0053303, and ESR-
0086186 were allowable, allocable, and reasonable in accordance with applicable Federal cost
principles and NSF award terms and conditions. This occurred because NWIC was unable to
provide adequate source documentation to support the total claimed costs for all three awards
and cost sharing for two awards.

NWIC was unable to provide source documentation for $670,671 in payroll and related benefit
costs and $444,635 in non-payroll costs for these three awards. Specifically, salary and related
fringe benefit costs we tested, totaling approximately 15 percent of the payroll costs, were not
supported by time and effort reports. NWIC did not have time and effort reporting for the
individuals we tested and the balance of the payroll and benefit costs were for most of the same
individuals who were included in our sample. Therefore, we questioned all of the payroll and
related benefit costs. Non-personnel costs we tested, representing approximately 42 percent of


                                               10
the total claimed costs, were not supported by source documentation identifying the expenditures
as benefiting NSF’s grants. NWIC did not have adequate documentation (such as invoices,
purchase orders, receipts and purchase requisitions) for non-payroll type costs. The remaining
untested non-payroll expenditures largely included indirect costs associated with the questioned
direct costs and direct costs claimed in excess of the amounts expended according to NWIC’s
accounting records. NWIC officials stated that they were not aware of the federal financial
management requirements for documenting costs incurred under NSF awards.

We conducted our audit of the Schedules of Award Costs as presented in Schedules A-1 through
A-3 in accordance with auditing standards generally accepted in the United States of America,
Government Auditing Standards issued by the Comptroller General of the United States in 1999,
and the National Science Foundation Audit Guide (September 1996), as applicable. These
standards and the National Science Foundation Audit Guide require that we plan and perform the
audit to obtain reasonable assurance about whether the financial schedules are free of material
misstatement. We were unable to obtain documentation supporting financial activity and the
total costs claimed and we were unable to satisfy ourselves by other auditing procedures that
financial activities were supported.

INTERNAL CONTROLS OVER FINANCIAL REPORTING

The management of the NWIC is responsible for establishing and maintaining internal control.
In fulfilling this responsibility, estimates and judgments by management are required to assess
the expected benefits and related costs of internal control structure policies and procedures. The
objectives of internal control are to provide management with reasonable, but not absolute,
assurance that assets are safeguarded against loss from unauthorized use or disposition, and that
transactions are executed in accordance with management’s authorization and recorded properly
to permit the preparation of financial schedules in accordance with accounting principles
prescribed by the National Science Foundation. Because of inherent limitations in internal
control, misstatements due to errors or fraud may nevertheless occur and not be detected. Also,
projection of any evaluation of internal controls to future periods is subject to the risk that
procedures may become inadequate because of changes in conditions or that the effectiveness of
the design and operation of policies and procedures may deteriorate.

In planning and performing our audit of Schedules A-1 through A-3 for the period of September
1, 1997 to December 31, 2001, we considered NWIC’s internal control over financial reporting
in order to determine our auditing procedures for the purpose of expressing our opinion on the
financial schedules and not to provide an opinion on internal control. Accordingly, we do not
express such an opinion.

We noted certain matters described below involving the internal control over financial reporting
and its operation that we consider to be reportable conditions under standards established by the
American Institute of Certified Public Accountants. Reportable conditions involve matters
coming to our attention relating to significant deficiencies in the design or operation of the
internal control over financial reporting that, in our judgment, could adversely affect NWIC’s
ability to record, process, summarize, and report financial data in a manner that is consistent with
the assertions of management in the financial schedules. Material weaknesses are reportable
conditions in which the design or operation of one or more of the internal control components
does not reduce to a relatively low level the risk that misstatements in amounts that would be


                                                11
material in relation to the financial schedules being audited may occur and not be detected within
a timely period by employees in the normal course of performing their assigned functions.

Our consideration of internal control over financial reporting would not necessarily disclose all
matters related to internal control over financial reporting that might be reportable conditions and
accordingly would not necessarily disclose all reportable conditions that are also considered to
be material weaknesses.

Of the reportable conditions described below, we consider Finding Nos. 1 and 2 to be material
weaknesses. These findings led to our disclaimer of opinion. These findings are also discussed
in Schedules of Award Costs (Schedules A-1 through A-3) and Schedules of Questioned Costs
(Schedules B-1 through B-3).

Finding No. 1: Salaries, Wages, and Fringe Benefits of Academic and Contract Staff, Non-
Payroll Costs and Cost Sharing Were Not Supported With Adequate Documentation.

OMB Circular A-21, Subpart J, Section .8.b. - Payroll Distribution – requires NWIC to have a
payroll distribution system that "will allow confirmation of activity allocable to each sponsored
agreement." (OMB A-21, Subpart J, Section .8.b (2)(c) states that acceptable payroll methods
require the use of at least one of the following labor effort confirmation methods: Annual Activity
Reports, After-the-Fact Activity Records, and Multiple Confirmation Records.

According to OMB Circular A-110, Subpart C, Section .21(b) recipients' financial management
systems shall provide for “accurate, current and complete disclosure of the financial results of
each federally-sponsored project or program.” Section .52 – Financial Reporting requires that
the records identify adequately the source and application of funds for Federally sponsored
activities. These records shall contain information pertaining to Federal awards, authorizations,
obligations, unobligated balances, assets, outlays, income and interest. The records shall be
supported by source documentation.

NSF GPM Section 333, NSF Cost Sharing and Matching, requires a grantee to maintain records
of all costs claimed as cost sharing and those records are subject to audit. These regulations also
state that cost-sharing expenses must not be included as contributions to any other federal award
or funded by any other federal award. In addition, OMB Circular A-110, Section 23, Cost
Sharing or Matching, states that cost-sharing expenses must be verifiable from the recipient’s
records.

Payroll and Related Fringe Benefit Costs

NWIC’s charges for salaries, wages and fringe benefits claimed in the amount of $670,671 were
not supported with adequate or reliable documentation. Specifically, prior to July 2001, NWIC
did not have any labor activity (time and effort) reports or other equivalent documentation to
support $670,671 of academic and contractor salaries and related fringe benefits charged to the
NSF grants. NWIC officials stated that they did not require academic and contract personnel to
document time charged to the NSF grants. Furthermore, our tests of salary costs charged to NSF
for 29 individuals found 3 unidentified employees and 1 employee that did not work on the NSF
awards.



                                                12
Also, we noted that for 7 of the 29 selections, the actual percentage of salary costs for key
individuals charged to the grants did not agree to the percentages of their effort proposed in the
grant budget. The differences between the actual and budgeted percentages were as much as 20
percent.

As a result, NWIC was unable to ensure the validity and accuracy of the salary and benefit costs
it charged to its NSF awards. Without labor effort records, NWIC was unable to support that the
salary and related costs charged to the NSF awards were actually incurred and that they benefited
the NSF awards.

Because of the lack of supporting documentation for $670,671 salaries charged to the NSF grants
and inadequate controls that allowed for unidentified individuals and individuals that did not
work on the NSF award to be charged to NSF, we have questioned the entire $670,671 claimed
for salary, wages, and fringe benefit costs on the three NSF awards.

Non-Payroll Costs

Non-payroll costs in the amount of $444,635 or 100%, which NWIC assigned to the NSF awards
were not adequately supported by source documentation. We sampled transactions for the
categories of equipment, consultant costs, travel, and materials and supplies with a value of
approximately $117,000, representing approximately 96 percent of the total costs claimed in
these four categories and about 10 percent of the total costs claimed. NWIC was unable to
provide documentation showing that these non-payroll expenditures benefited the NSF funded
projects. The remaining 30 percent of untested non-payroll expenditures largely included indirect
costs, associated with the questioned direct costs, and direct costs charged to NSF in excess of
the amounts recorded in NWIC’s accounting records for the NSF awards.

We attribute the incomplete and unreliable documentation supporting NWIC’s payroll and non-
payroll costs to inadequate accounting systems and uninformed staff. NWIC officials stated that
NWIC relied on a total of four accounting systems, including the use of Excel spreadsheets, to
account for the NSF awards. The current system was initiated in July 2001, but it was subject to
crashes and lockouts, which resulted in data being lost. Also, they stated that current staff had
limited knowledge of older transactions and accounting data and had experienced a high turnover
and a limited number of accounting staff.        Also, the PI and accounting staff were not
knowledgeable of NSF and Federal requirements, and accordingly did not have any procedures
for ensuring proper supervisory review, approval and monitoring of grant expenditures. Because
of the lack of documentation identifying the expenditures as related to the NSF projects,
$670,671 in payroll costs and $444,635 in non-payroll costs totaling to the entire $1,115,306
claimed on the three NSF awards were questioned.




                                               13
Cost Sharing

We found that NWIC did not have a system to identify, account for, monitor, and report cost
sharing. In addition, NWIC did not account for cost sharing separately from direct funded
expenditures. According to the grant provisions, the awardee was required to cost share in the
amounts of $35,534 for Grant No. DUE-9752076 and $141,114 for Grant No. DUE-0053303.

However, NWIC was unable to provide any evidence to support its cost share contributions to
these awards. In particular, NWIC lacked a system to track and account for cost sharing.
Although NWIC claimed that it had cost shared employee labor effort to the NSF projects, it
could not provide any records showing that labor costs had been expended on the NSF projects,
except the labor costs it charged directly to the awards. Similarly, NWIC’s A-133 Single Audit
for FY 2002 confirmed that the failure to account for cost sharing was still present for the FY
2002 period and recommended that “NWIC provide non-federal cost sharing equal to the
required amount. The match should be adequately documented in accordance with federal
regulations.”

As a result, we questioned all of the $35,534 in cost sharing on Grant No. DUE-9752076 and
identified $141,114 on Grant No. DUE-0053303 as “at risk” of not being met. Cost sharing is
identified as “at risk” if an awardee is lagging in meeting its cost-sharing obligation for an award
that is still active. In addition, without evidence of cost sharing, it is unclear whether NWIC
compromised the project objectives, or in the alternative, whether the project could have been
accomplished for a lesser cost.

Recommendation No. 1

We recommend that the NSF Division Directors of DIAS and DGA require NWIC to:

1)     Establish a system to have all employees working on NSF funded projects complete the
       appropriate labor activity report supporting the level of effort expended on NSF awards
       and ensure that all employees charged are actually working on the award and all salary
       charges are otherwise properly documented as benefiting the NSF award, in accordance
       with OMB Circular A-21, Subpart J, Section 8.

2)     Establish a system to accurately and timely account for, document, and report the receipt
       and expenditure of NSF project funds and cost share, in accordance with the federal and
       NSF award requirements. This should include maintaining all supporting source
       documentation for payroll and non-payroll costs and cost share and tracking and
       monitoring actual expenditures to the budgeted costs presented in the grant proposal.

Awardee Comments

The Awardee, concerning payroll costs, stated that:

       Personnel charges to the NSF grants were in support of program services. Current
       employees with the College were associated with the grants that were audited by
       Foxx & Company and can provide verification that the charges were appropriate and
       necessary to the success of the program. It is unclear from the information provided


                                                14
       by Foxx & Company in the audit report as to which personnel charges are specifically
       questioned. Our position is that adequate documentation can be provided as evidence
       of the appropriateness of the charges in the personnel area.

The Awardee, concerning non-payroll costs and cost sharing, stated that:

       In May 2003, the College hired an accounting firm to assist in the completion of the
       two (OMB Circular A-133) audits that the College was behind in completing and to
       work on the completion of the 2003 audit in a timely manner. As a result of this
       investment, the College was able to complete the three audits before the end of March
       2004. All three audits are on file in the Clearinghouse.

       This investment also resulted in vastly improved compliance in the College’s
       financial management system and accounting records. Attached at Appendix D is a
       copy of a letter from the College’s auditor, XXXXXX, indicating the College’s
       compliance with accepted accounting practices in the current system operations.

       Further, this process identified and organized a substantial amount of the accounting
       records that had previously been in disarray due to the events also discussed earlier.

Auditor’s Response

Upon receipt of the awardee’s comments, we again provided NWIC with specific identifying
data for the unsupported payroll charges. However, because the awardee still did not provide
any supporting documentation, the finding remains as stated. The awardee’s comments are
otherwise responsive to the recommendations; however, the findings cannot be resolved until
NSF verifies that proposed corrective actions have been implemented. (Note that Appendix B
referred to in NWIC’s response is contained in a separate volume of this report and is available
upon request from the NSF OIG).

Finding No. 2: NWIC Could Not Identify, Track, Accumulate, or Report Expenditures
under the NSF Awards.

According to OMB Circular A-110, Subpart C, Section .21(b), recipients' financial management
systems shall provide for “accurate, current and complete disclosure of the financial results of
each federally-sponsored project or program.” Section .52 – Financial Reporting requires that
the records identify adequately the source and application of funds for Federally sponsored
activities. These records shall contain information pertaining to Federal awards, authorizations,
obligations, unobligated balances, assets, outlays, income and interest. The records shall be
supported by source documentation.

Also, NSF’s Grant General Conditions (GC-1, 10/98), Article 2.b, state that funds provided for
participant support may not be used for other categories of expense without the written prior
approval of the cognizant NSF program officer. To comply with this requirement, an awardee
must be able to identify and track its participant support expenditures.



                                               15
Accumulation of Costs by Budget Category

However, NWIC did not accumulate and track expenditures by NSF budget cost categories, and
NWIC could not provide a crosswalk tying expenditures under the NWIC accounting structure
(account codes) to the cost categories in the NSF proposed budgets. Although NWIC established
separate accounts for each NSF grant, NWIC officials stated they were not aware that they
should be able to cross walk actual costs to NSF budget categories. Further, as discussed above,
NWIC maintained little or no subsidiary records or source documentation to indicate what
charges were for.

Because NWIC did not track budgeted to actual expenditures, or retain source documentation, it
was unable to monitor its actual expenditures on NSF awards against the budgeted costs or
monitor and evaluate the attainment of project objectives in light of budgeted and actual costs.
In addition, NWIC could not determine whether it had properly used $67,500 of NSF funds
provided for participant support activities. Due to poor accounting records, the actual amount
NWIC spent on participant support costs was unknown. Also, participant support funds could
have been spent on ineligible functions, -- either other project costs that required NSF prior
approval to use participant support funds or on totally unrelated NWIC activities. Without
adequate accounting records, it was not possible to make that determination. NWIC officials
told us that they were not aware of the requirement to track participant support costs or to obtain
approval from NSF prior to spending participant support funds for other project purposes.

Federal Cash Transaction Reports

NWIC did not accurately or timely report its cash advances from NSF or expenditures on its
FCTR.

We found that beginning with the FCTR for the quarter ended June 2000, the actual monthly
expenditures recorded in NWIC’s general ledger did not agree or reconcile with the expenditure
amounts reported on the FCTRs to NSF. NWIC reported $26,681 more in expenditures on its
cash FCTRs for its three awards than was reflected in its general ledger. In addition, the monthly
advances NWIC received via NSF’s FastLane system did not reconcile to the receipts NWIC
reported on its quarterly FCTRs. Furthermore, for three quarters (December 1999, June 2000,
and December 2000), NSF notified NWIC that quarterly FCTRs were not submitted by the
required date. This occurred because NWIC did not have any procedures in place to ensure that
financial reports were submitted to NSF on a timely basis. Therefore, NWIC did not properly or
timely report to NSF the status of its expenditures or receipts on the NSF awards, nor could it
accurately monitor actual expenditures to those budgeted in the NSF awards to determine if
funds were being spent to attain project objectives.

Because of the lack of adequate grant accounting and reporting practices and procedures, we
were unable to rely on NWIC’s accounting records to accurately report its claimed costs. This
combined with the missing source documents is the basis for disclaiming our opinion and
questioning the entire NSF funding and cost share.




                                                16
Recommendation No. 2:

We recommend that the NSF Division Directors of DIAS and DGA:

       1. Require NWIC to track actual NSF grant expenditures by NSF budget cost categories;
       2. Require NWIC to develop written procedures to ensure that participant support costs
          are used for their intended purpose, are tracked separately, and that NSF approval is
          obtained before participant support costs are rebudgeted for other purposes.
       3. Require NWIC to establish procedures to ensure that the amounts received from NSF
          and expended per NWIC’s general ledger reconcile to the amounts of receipts and
          expenditures claimed on the quarterly FCTR.
       4. Recognize NWIC as a high risk awardee under its risk management program, ensure
          that NWIC develop a corrective action plan detailing specific actions it will take to
          address the report findings and recommendations, and verify that these corrective
          actions are implemented before making additional new awards to NWIC.

Awardee Comments

       The awardee stated in its September 23, 2004 response to the report that additional
       measures had been taken to strengthen its financial management system and make
       it compliant with Federal requirements. Based on these improvements the awardee
       did not believe it should be considered a “high risk” awardee.

In addition, the awardee stated in its April 21, 2004 response that:

       In May 2003, the College hired an accounting firm to assist in the completion of
       the two (OMB Circular A-133) audits that the College was behind in completing
       and to work on the completion of the 2003 audit in a timely manner. As a result of
       this investment, the College was able to complete the three audits before the end of
       March 2004. All three audits are on file in the Clearinghouse.

       This investment also resulted in vastly improved compliance in the College’s
       financial management system and accounting records. Attached at Appendix D is
       a copy of a letter from the College’s auditor, XXXXXX, indicating the College’s
       compliance with accepted accounting practices in the current system operations.

       Further, this process identified and organized a substantial amount of the
       accounting records that had previously been in disarray due to the events also
       discussed earlier.

Further, the awardee stated that:

       A monitoring system is managed by our grants accountant in collaboration with
       individual grant managers to ensure that all financial and narrative reports are filed
       in a timely manner and that cash transactions and annual reports are appropriately
       reconciled. Documents pertinent to the grants monitoring system are attached at
       Appendix B.



                                                 17
Auditor’s Response

The awardee’s comments are responsive to the recommendations; however, the findings cannot
be resolved until NSF verifies that proposed corrective actions have satisfactorily been
implemented. (Note that Appendix B and D referred to in NWIC’s response are contained in a
separate volume of this report and are available upon request from the NSF OIG).


Finding No. 3: Duties Were Not Assigned Properly to Accomplish Required Segregation of
Duties.

Effective internal controls require that the staff’s duties are properly segregated to ensure that all
transactions are separately reviewed for propriety and accuracy and that only authorized
disbursements are made. Functions such as payroll processing, check writing, check distribution,
handling of cash receipts, and reconciling bank account information to accounting records should
be assigned to staff in a manner that will provide the proper checks and balances and ensure that
all transactions are properly processed, reviewed and approved.

NWIC’s payroll process and the accounts payable function did not have adequate segregation of
duties. Our audit disclosed that the grant accountant performed essentially all duties within the
payroll cycle, including processing time cards, preparing and signing payroll checks, and
disbursing checks to employees. While the Comptroller, who was not part of the accounting and
payroll process, performed a review of total payroll amounts, he did not review payroll ledgers
detailing individual payroll amounts or disbursements.

In addition, we also noted that the accounts payable clerk prepared and signed outgoing checks
for all non payroll-related costs. Prior to printing the checks, the Comptroller reviewed check
runs, but again undertook no further review to assure that the checks printed were for authorized
purposes benefiting NSF’s grants.

NWIC officials stated that they did not have sufficient accounting personnel to perform separate
functions of the various processes related to payroll processing and accounts payable. As a result,
the potential exists for payments to be made for inaccurate amounts or to unauthorized
employees or vendors without being detected. This condition was also reported as a significant
internal control weakness in NWIC’s A-133 Single Audit Report for the period ended June 30,
2002.

Recommendation No. 3:

We recommend that NSF Division Directors of DIAS and DGA require NWIC to reassign duties
to achieve better segregation of duties in the payroll and accounts payable processes or institute
independent review procedures to ensure that all transactions are for authorized NSF grant
purposes.

Awardee Comments

The Awardee stated that the A-133 Single Audits provide evidence that there is adequate
segregation of duties in their current business structures.


                                                 18
Auditor’s Response

The awardee’s comments are partially responsive to the recommendations; however, the awardee
did not identify the steps taken to correct the weaknesses. The finding cannot be resolved until
NSF verifies that the corrective action has satisfactorily been implemented.

Finding No. 4: NWIC Did Not Perform Periodic Bank Reconciliations.

Effective internal controls require that bank accounts be reconciled and reviewed for accuracy
and completeness at least monthly.

NWIC did not have procedures, written or otherwise, for periodically reconciling its bank
accounts. We found that at the time of our audit in January 2002, NWIC personnel had not
performed a bank reconciliation of any accounts since December 2000. As a result, there was
no assurance that the bank account balances were accurate. NWIC officials stated that they did
not have sufficient accounting personnel to perform monthly bank reconciliations. However, it
is our understanding that most banks could have performed the monthly reconciliations, if this
service had been requested.

As a result, accurate and complete cash balances may not be recorded NWIC’s accounting
books. Also, incomplete or incorrect cash transactions may be posted to the bank accounts but
not be detected on a timely basis by the NWIC accounting personnel.

Recommendation No. 4:

We recommend that the NSF Division Directors of DIAS and DGA ensure that NWIC:

       1)   assign an employee that is independent of the cash receipts, accounts payable and
            payroll functions to reconcile the bank account on a monthly basis with NWIC’s
            official accounting records, or

       2)   request the bank to provide this service.

Awardee Comments

The Awardee stated that:

All NWIC bank reconciliations are current. Bank reconciliations are the responsibility of the
Senior Accountant with the support of the Finance Director.




                                                19
Auditor’s Response

The awardee’s comments are responsive to the recommendations; however, the finding cannot
be closed until NSF verifies that the proposed corrective action has satisfactorily been
implemented.

COMPLIANCE

Compliance with applicable Federal laws, regulations, and the provisions of the NSF award
terms and conditions is the responsibility of NWIC’s management. As part of obtaining
reasonable assurance about whether the financial schedules referred to above are free of material
misstatements, we performed tests of NWIC’s compliance with certain provisions of laws,
regulations, NSF award terms and conditions; noncompliance with which could have a direct and
material effect on the determination of the financial schedules’ amounts. However, providing an
opinion on overall compliance with such provisions was not an objective of our audit of the
financial schedules. Accordingly, we do not express such an opinion.

The results of our tests of compliance disclosed instances of noncompliance that are required to
be reported herein under Government Auditing Standards and the National Science Foundation
Audit Guide. Three instances of noncompliance with federal grant requirements are discussed
below. The remaining four instances of noncompliance are also internal control weaknesses that
are discussed in Finding Numbers 1 through 4 in the Internal Control Over Financial Reporting
section of this report. Finding Numbers 1 and 2 directly resulted in and are the basis for our
disclaimer of opinion on the costs presented in Schedules A-1 through A-3.

Finding No. 5: NWIC Did Not Comply with Requirements for NSF Funded Publications.

Two of the three NSF award letters contained special terms and conditions regarding
requirements for publications, websites and other documents produced under the awards. NSF
Award No. DUE–9752076 contains the following special provisions:

The National Science Foundation encourages the broad dissemination of materials resulting from
NSF awards. If this award involves the development of materials or publications, which will be
disseminated commercially, the grantee is responsible for developing, documenting and
implementing a publication or distribution plan, which includes, at a minimum, the following
elements:

   •   Procedures to be followed for selection of a publisher or distributor so as to ensure
       reasonable competition or justification for non-competitive selection;
   •   Delineation of the criteria used in the selection of the publisher or distributor;
   •   Steps taken to prevent conflicts of interest in the selection of a publisher or distributor.

Also, the grantee must ensure that the publisher or distributor of any material supported under
the NSF award agrees to provide the Government with a royalty-free license to use the materials
for Government purposes as described in Grant General Conditions, GC-1 (10/95) Article 18.
Any publication or distribution agreement must be consistent with GC-1, Article 20. Broadcasts
and other materials developed (e.g., videotapes of programs, a teacher’s guide, etc.) as part of the


                                                20
project, including such electronic components as the World Wide Web, must include a clear
indication of the source(s) of support (NSF and any other contributors) and must include the NSF
logo in a manner approved by NSF. NSF credits normally should be included at both the heads
and tails of both broadcast and non-broadcast programs and placed on the covers of publications.

NSF Award No. DUE-0053303 contains the following special provision:

   All materials produced as part of this project, including electronic components such as World
   Wide Web pages, must include a clear indication of source(s) of support (both NSF and any
   other contributors).

The awardee did not develop a "publication and distribution plan" required by NSF Award No.
DUE-9752076. The NSF funded publications and website did not include an NSF disclaimer, an
acknowledgment of NSF’s support, or the NSF logo, as required by special award letter terms
and conditions in both awards. Also, NSF support of the publications was not acknowledged to
the users under either of the awards and materials developed under the NSF awards did not
acknowledge that NSF has a royalty-free license on the works produced, as required by Article
20 of the NSF General Grant Conditions (GC-1). Specifically,

       1.    NWIC did not include the required disclaimer on the "Handbook for Facilitators"
            produced with grant funds. NWIC did not acknowledge the NSF financial support or
            include a disclaimer on the Web page for the NSF sponsored projects as required for
            both awards. NWIC did not have support to show that a royalty free license had been
            acknowledged to NSF on the “Handbook for Facilitators” or in any other documents
            produced with grant funds.

       2. Specific NSF award terms and conditions required the awardee to develop a
          “publication and distribution plan." The NWIC Grants Office Procedure Manual
          required that documents produced under the NSF awards be provided to the Grants
          Management officials for review, according to NWIC officials. NWIC grant
          administration officials stated that they did not always receive grant documents and
          publications from the technical personnel to assure that award terms were met.
          Required acknowledgements and disclaimers were not included in materials produced
          and specific award requirements relating to the publications were not met.

NWIC stated that they did not have a “publication and distribution” plan required by the award
because they were not aware of the requirement. The lack of acknowledgement of NSF support,
disclaimer, and NSF logo may have resulted in the general public not understanding that the
project was financed with NSF funds and the public may have perceived that the views in the
“Handbook for Facilitators” and on the website were shared by the National Science Foundation.

Recommendation No. 5:

We recommend that the Division Directors of NSF’s Division of Institution and Award Support
(DIAS) and Division of Grants and Agreement (DGA) require NWIC to:

   1. establish and implement written policies and procedures to ensure that grant requirements
      are met for developing a publication and distribution plan, acknowledging NSF’s royalty-


                                               21
      free license on work products, and revising grant products to include an acknowledgement
      of NSF’s financial support and a disclaimer and,

   2. provide training to NWIC staff responsible on requirements for NSF funded publications.

Awardee Comments

The Awardee stated in its written comments that the College’s administrative team, comprised of
the President and three Vice Presidents ensure that all appropriate obligations of grants including
dissemination, acknowledgement of royalty-free licenses and inclusion of appropriate
recognition of federal agency (including NSF) support occurs. Individual grant managers are
trained in the implementation of their grant requirements.

Auditor’s Response

NWIC’s comments are responsive to the recommendations; however, the finding will remain
unresolved until NSF verifies that the proposed corrective actions have satisfactorily been
implemented.

Finding No. 6: NWIC Had No Written Procedures for Monitoring and Keeping Track of
Property and Equipment Purchased with Federal Funds.

OMB Circular A-110, Subpart C, Section .34 requires that awardees maintain property
management procedures for equipment acquired with Federal funds and Federally-owned
equipment. Awardees are also required to perform physical inventories every two years.
Accordingly, NWIC was required to maintain property management procedures and complete a
physical inventory every two years.

NWIC did not have documented property management procedures for equipment acquired with
federal funds and/or federally owned equipment. Also, we found that NWIC had not conducted
a physical inventory of property and equipment in the required two-year time period, including
the $19,681 of property and equipment acquired with the NSF funds during the period covered
by our audit. Although the amount of property and equipment claimed was relatively small, we
were unable to determine if property was missing or unaccounted for because there was no
inventory list or source documentation to show that equipment had been purchased under the
awards. (See Finding No. 1 on lack of supporting documentation.) As a result, we could not
determine if assets acquired with Federal funds were missing or unaccounted for because they
were not properly recorded or safeguarded.

Similar findings were reported in NWIC’s annual A-133 Single Audit Reports completed for
fiscal years ended June 30, 1997, June 30, 2000, and June 30, 2002. NWIC personnel informed
us that NWIC did not have sufficient accounting personnel to take an inventory or reconcile
differences and changes to the property records.




                                                22
Recommendation No. 6:

We recommend that the Division Directors for DIAS and DGA require NWIC to develop and
implement written property management procedures that meet the requirements established by
the Office of Management and Budget, Circular A-110, Subpart C, Section 34 – Property
Management Standards, including conducting physical inventories every two years and adjusting
the property records for any differences.

Awardee Comments

The awardee stated that NWIC maintains a physical inventory of all property through a property
management system maintained by the Business Office. All inventory is properly documented
and physically reviewed by the Property & Supply Clerk and appropriate NWIC staff on an
annual basis.

Auditor’s Response

The Awardee’s actions were partially responsive to the recommendation. The Awardee did not
state in its comments that written procedures had been developed. The finding will remain
unresolved until NSF verifies that written procedures were developed and that the proposed
corrective actions have satisfactorily implemented.

Finding No. 7: NWIC Could Not Document its Procurements to Show Adequate
Competition Resulted in the Most Advantageous Price to the Government.

OMB Circular A-110, Subpart C, Sections .40 - .48 Procurement Standards requires that all
recipients establish written procurement procedures and maintain written standards of conduct
governing the performance of the employees engaged in the award and administration of
contracts. The procedures are required to assure that recipients fairly compete their contracts
and obtain the most advantageous price in its acquisition of goods and services with federal
funds.

Documentation was not available to support that contracts, for goods and services were awarded
to the bidder that offered the most advantageous price under the awards. Over $81,443 in
equipment, materials and supplies was acquired under the NSF awards and NWIC could not
show that it had obtained these in the most cost effective way. NWIC also could not document
that it had acquired consultant services, in excess of $77,168, at the best price available.

NWIC also did not have written procurement procedures, as required by OMB Circular A-110,
Subpart C, Section .44(a), including written standards of conduct governing the performance of
its employees engaged in the award and administration of contracts. As a result, NWIC could
not show it had obtained adequate competition or the most advantageous price. This condition
existed because NWIC officials were not aware of Federal requirements for procurement of
goods and services under federal grants.




                                              23
Recommendation No. 7:

We recommend that the NSF Division Directors of DIAS and DGA require NWIC to:

   1. Establish written procedures for the steps that should be taken to ensure that the award of
      all contracts for goods and services are based on fairly competed proposals.
      Documentation should be maintained to explain why the successful bidder was selected,
      and

   2. Prepare and implement written procurement procedures that meet the requirements
      established by the OMB, Circular A-110, Subpart C, Section .40 through .48 and written
      standards of conduct in Section .42 - Codes of Conduct, governing the performance of
      employees engaged in the award and administration of contracts.

Awardee Comments:

The Awardee stated that NWIC complies with appropriate expectations for expenditure of grant
and institutional funds by requiring the grants managers and department heads to obtain a
minimum of three bids for items within the guidelines of federal and college regulations and
policies and requires documentation of choice when a decision is made to sole source an item or
service.

Auditor’s Response:

The Awardee’s comments are responsive to the recommendations. However, the finding will
remain unresolved until NSF verifies that the proposed corrective actions have satisfactorily been
implemented.

The pervasiveness of the financial management deficiencies involving the NSF award funds,
identified in this report suggest an overall control environment at NWIC that warrants immediate
corrective action toward establishing good internal controls and compliance with federal award
terms and conditions. NWIC’s management indicated there was an overall lack of knowledge of
federal and NSF award requirements at the time the awards were performed. In addition to that
lack of knowledge, the inadequate systems to properly account for NSF funds, and the overall
lack of policies and procedures to administer NSF awards and the lack of supporting
documentation indicate the need for NWIC management to place a high priority on addressing
these deficiencies. Until the corrective actions recommended in this report and those NWIC
addressed in its comments are verified, NSF has little or no assurance that NWIC has and will
spend NSF award funds on authorized purposes. NWIC’s lack of adequate accounting systems
and written policies and procedures for its NSF award financial activities place NWIC’s awards
at a high risk that misstatements, in amounts that would be material in relation to the Schedules
of Award Costs (Schedules A-1 through A-3), may occur and not be detected.




                                               24
This report is intended solely for the information and use of the NWIC’s management, the NSF,
NWIC’s cognizant Federal agency, the Office of Management and Budget, and the Congress of
the United States, and is not intended to be and should not be used by anyone other than these
specified parties.




Foxx & Company
Cincinnati, Ohio
January 31, 2002




                                             25
 FINANCIAL SCHEDULES AND
SUPPLEMENTAL INFORMATION




           26
                                                                             SCHEDULE A-1

                             NORTHWEST INDIAN COLLEGE
                              BELLINGHAM, WASHINGTON

        NATIONAL SCIENCE FOUNDATION AWARD NUMBER DUE-9752076

                              SCHEDULE OF AWARD COSTS

                      For the period September 1, 1997 to August 31, 2000
                                           FINAL

                                                           (A)                       Schedule B
                   Cost                 Approved         Claimed      Questioned        Note
                 Category                Budget           Costs         Costs        Reference
  XXXXXXX
    XXXXXXXXXX                         XXXXXXX XXXXXXX               XXXXXX          XXXXXX
    XXXXXXXX                              XXXX     XXXX                  XXXX        XXXXXX
    XXXXXXXXXX                            XXXX     XXXX                  XXXX        XXXXXX
    XXXX                                  XXXX     XXXX                  XXXX        XXXXXX
    XXXXXXXXXXXXX                         XXXX     XXXX                  XXXX        XXXXXX
    XXXXXXXXXXXX                          XXXX     XXXX                  XXXX        XXXXXX
    XXXXXXXXXX                            XXXX     XXXX                  XXXX        XXXXXX
    XXXXXXXX                              XXXX     XXXX                  XXXX        XXXXXX
    XXXXXX                                XXXX     XXXX                  XXXX        XXXXXX
      XXXXXXXXXX                         XXXXX    XXXXX                 XXXXX

  XXXXXXXXXX                               XXXXX          XXXXX           XXXXX      XXXXXX

  XXXXXXXXXXXXXXXXX                        XXXXX          XXXXX           XXXXX

  XXXXXXXXXXXXXXXXXX                           XX           XXXX           XXXX      XXXXXX

       Total costs                     $   775,049   $     775,049   $    775,049

  Cost sharing                         $    35,534   $       -0-     $      35,534   XXXXXX

(A) The total costs claimed agree with the total expenditures reported on the Federal Cash
    Transactions Report - Federal Share of Net Disbursements as of December 31, 2001. The
    costs in the awardee’s accounting system could not readily be put into (or matched to) the
    NSF cost categories. Therefore, claimed costs reported above were taken directly from the
    awardee’s books of account and placed in the above categories according to the awardee’s
    account titles.

(B) The indirect cost allowance is at a predetermined fixed rate of 21.4 percent, to be applied to a
    direct cost base, which excludes participant support costs.




                                                26
                                                                            SCHEDULE B-1


                           NORTHWEST INDIAN COLLEGE
                            BELLINGHAM, WASHINGTON

           NATIONAL SCIENCE FOUNDATION AWARD NO. DUE-9752076

                         SCHEDULE OF QUESTIONED COSTS

                   For the period September 1, 1997 to August 31, 2000
                                        FINAL

Note B-1a Salaries and Wages

The questioned salaries and wages of XXXX represent $11,199 of salary charges to the NSF
grant not adequately supported that were included in our testing. The remaining XXXX of costs
claimed were not tested but questioned because overall, NWIC did not maintain adequate
support documentation for salary and wage costs. We were unable to apply other auditing
procedures to satisfy ourselves that salary and wage costs claimed on the Schedule of Award
Costs is presented fairly. Our review of salary and wages charged to Grant No. DUE-9752076
included a test of eleven individuals charged to this grant, as follows:

         Date of       Amount                  Reason for Questioned Cost
         Charge
        XXXXX              $1,190 Individual and job description not identified
         XXXX                 256 Amount claimed not supported
        XXXXX               1,161 No time and effort support
        XXXXX                  72 Amount claimed not supported
        XXXXX               1,653 No time and effort support and not a grant employee
        XXXXX               2,661 Individual and job description not identified
         XXXX               1,600 No time and effort support
         XXXX               1,141 No time and effort support
        XXXXX                 820 No time and effort support
        XXXXX                 237 Individual and job description not identified
        XXXXX                 408 No time and effort support
               Total      $11,199




                                             27
As shown above, seven of the sampled charges revealed that activity reporting or some other
form of supporting documentation in accordance with OMB Circular A-21, Paragraph J.8, was
not available; three of the charges were not identified by person, job description, or pay rate; and
one person who was charged to the grant did not work on the grant. As a result, we have
questioned $11,199 of salaries claimed or 100 percent of the items we tested. According to
NWIC personnel, academic and contract personnel were not required by NWIC to document
charges to NSF grants, until after July 2001. Alternate documentation was also unavailable for
review. In addition, because many of the same individuals that were found not to have support
for charges in the sample were also in the untested payroll charges, we have questioned the
remaining XXXX of salary and wage costs claimed.

Awardee Comments

The awardee did not respond specifically to the questioned costs.

Auditor’s Response

Although additional information was provided to the awardee identifying the individuals selected
for audit, the awardee did not respond. Accordingly, the questioned costs remain in the final
report.

Note B-1b Fringe Benefits

Because the associated salary and wage costs were not supported with adequate documentation
and the awardee only had summary sheets by year showing a total fringe amount for the year
without a break down of the fringe benefit components, we could not determine the allowability
of the fringe benefits. Accordingly, we questioned all fringe benefits claimed of XXXX as
unsupported in accordance with OMB Circular A-110, subpart C paragraph .21(b)(1) through
(7).

Awardee Comments

The awardee did not comment on the specific cost questioned.

Auditor’s Response

Because the awardee did not comment on the questioned costs, it remains questioned.

Note B-1c Permanent Equipment

The XXXX questioned represents $6,512 questioned which was expended on permanent
equipment for which the awardee could not provide adequate documentation required by OMB
Circular A-110, Subpart C .21 (b) (1) through (9) supporting that this equipment benefited the
NSF grant and the remaining XXXX was questioned because of overall poor controls and a lack
of procedures over property. The awardee could not provide supporting documentation that
identified that the NSF funded project benefited for the following items:




                                                28
             Vendor                 Item Description           Amount
          XXXXX                  Lap Top Computers           $     3,428
          XXXXXX                 Lite Projector                   3,084
                                                             $    6, 512

Awardee Comments

The awardee did not comment on the specific cost questioned.

Auditor’s Response

Because the awardee did not comment on the questioned costs, it remains questioned.

Note B-1d Travel

The $2,196 of travel questioned represents charges to the grant included in our testing that were
not supported by documentation. The awardee could not provide expense reports to support the
following charges:

           Item Description               Date                 Amount
          XXXXXX                          XXX                $    1,694
          XXXXXXXX                        XXX                       502
                                                             $    2,196

Because the awardee could not provide documentation to support the costs as required by OMB
Circular A-110, Subpart C, paragraph .21(b)(1) through (7), we have questioned $2,196 in travel
costs claimed.

Awardee Comments

The awardee did not comment on the specific cost questioned.

Auditor’s Response

Because the awardee did not comment on the questioned costs, it remains questioned.

Note B-1e Participant Support

The $51,500 questioned represents costs budgeted for participant support for which the awardee
could not provide support which documented costs were expended on approved participant
support activities.

Awardee Comments

The awardee did not comment on the specific cost questioned.




                                               29
Auditor’s Response

Because the awardee did not comment on the questioned costs, it remains questioned.

Note B-1f Materials and Supplies

The XXXX questioned represents $7,194 of materials and supplies included in our testing for
which the awardee could not provide adequate support and the remaining XXXX was questioned
because of overall poor controls and a lack of oversight on all costs incurred by the awardee.
The following items were included in the $7,194 questioned:

             Vendor              Item Description             Date           Amount
          XXXXXXXX            XXXXXXXXXXXX                   XXXX          $    6,778
          XXXXXX              XXXXXX                         XXXX                 416
                                                                           $    7,194

Because the above items do not benefit only the NSF grant in accordance with OMB Circular A-
110, Subpart C, .21(b)(1) through (7), the $7,194 has been questioned.

Awardee Comments

The awardee did not comment on the specific cost questioned.

Auditor’s Response

Because the awardee did not comment on the questioned costs, it remains questioned.

Note B-1g Publication Costs

The $2,677 of publication costs has been questioned because of overall poor controls and a lack
of oversight on the costs incurred.

Awardee Comments

The awardee did not comment on the specific cost questioned.

Auditor’s Response

Because the awardee did not comment on the questioned costs, it remains questioned.

Note B-1h Consultant Costs

The XXXX questioned represents $8,920 of consultant costs tested for which the awardee could
not provide adequate support for the amount being charged to the NSF project and XXXX not
tested which was questioned because of overall poor controls and a lack of oversight on the costs
incurred by the awardee. The $8,920 questioned consisted of the following items:



                                               30
               Vendor              Item Description              Date           Amount
              XXXXXX                  XXXXXX                    XXXX        $      8,920
                                                                            $      8,920

Because the awardee could not provide documentation supporting these items as benefiting the
NSF funded project in accordance with OMB Circular A-110. Subpart C, .21, (b) (1) through (7),
we questioned the $8,920.

Awardee Comments

The awardee did not comment on the specific cost questioned.

Auditor’s Response

Because the awardee did not comment on the questioned costs, it remains questioned.

Note-B-1i Other Costs

The $36,553 of other costs was questioned because of overall poor controls and a lack of
oversight on the cost incurred by the awardee.

Awardee Comments

The awardee did not comment on the specific cost questioned.

Auditor’s Response

Because the awardee did not comment on the questioned costs, it remains questioned.

Note B-1j Indirect Costs

The XXXX questioned represents $22,500 of indirect costs claimed applicable to the amounts
questioned during our detailed testing and the remaining XXXX was questioned because of the
overall poor controls and lack of oversight on the direct costs incurred by the awardee. The NSF
award included a fixed indirect cost rate of 21.4 percent applied to direct costs less participant
support costs. The 21.4 percent rate applied to the costs questioned during our detailed testing
less the questioned participant support costs results in $22,500 questioned calculated as follows:

                        Costs Questioned during testing     $     105,141
                                                                   21.4%
                        Indirect Cost Questioned            $      22,500

Awardee Comments

The awardee did not comment on the specific cost questioned.




                                               31
Auditor’s Response

Because the awardee did not comment on the questioned costs, it remains questioned.

Note B-1k Unsupported/Undocumented Costs

The $3,480 questioned represents costs the awardee claimed in excess of actual costs incurred
according to NWIC’s general ledger. Because the awardee could not provide documentation that
the costs were incurred or benefited the NSF grant in accordance with OMB Circular A-110,
Subpart C, .21(b) (1) through (7), the $3,480 has been questioned.

Awardee Comments

The awardee did not comment on the specific cost questioned.

Auditor’s Response

Because the awardee did not comment on the questioned costs, it remains questioned.

Note B-1l Cost Sharing

OMB Circular A-110 Section .23 and GPM 333.6(a) require that awardee’s account for cost
sharing in a manner that is verifiable by the awardee’s records. The awardee’s accounting
system did not account for the $35,534 of required cost sharing, nor was there any supporting
documentation to show that NWIC cost shared any portion of the project. Because NWIC could
not provide any supporting documentation and did not maintain records of its cost sharing, we
questioned the required cost sharing of $35,534. (See Finding No. 1.)

Awardee Comments

The awardee did not comment on the specific cost questioned.

Auditor’s Response

Because the awardee did not comment on the questioned costs, it remains questioned.




                                              32
                                                                                         SCHEDULE A-2

                               NORTHWEST INDIAN COLLEGE
                                BELLINGHAM, WASHINGTON

        NATIONAL SCIENCE FOUNDATION AWARD NUMBER DUE- 0053303

                                SCHEDULE OF AWARD COSTS

                   For the interim period September 1, 2000 to December 31, 2001
                                             INTERIM

                                                                  (A)                      Schedule B
              Cost                           Approved           Claimed     Questioned        Note
            Category                          Budget             Costs        Costs        Reference
    XXXXXXXX
    XXXXXXXXXXX                          $      XXXX        $     XXXX $        XXXX       XXXX
    XXXXXXXXXX                                  XXXX              XXXX           XXXX      XXXX
    XXXXXXXXXXXX                                   X               XXX            XXX      XXXX
    XXXXX                                       XXXX              XXXX           XXXX      XXXX
    XXXXXXXXXXXXXXX                             XXXX              XXXX           XXXX      XXXX
    XXXXXXXXXXXXX                               XXXX              XXXX           XXXX      XXXX
    XXXXXXXXXXX                                 XXXX                 X              X
    XXXXXXXXXX                                  XXXX              XXXX           XXXX      XXXX
    XXXXXXXX                                    XXXX                XX             XX      XXXX
    XXXXXXXXXXXX                               XXXXX             XXXXX          XXXXX

    XXXXXXXXXX                                  XXXX               XXXX          XXXX      XXXX
    XXXXXXXXXXXXXXXXXX                   $      XXXX        $      XXXX $       XXXX

    XXXXXXXXXXXXXXXXXX                                  -          XXXX          XXXX      XXXX

     Total costs                         $      589,343           277,484       277,484

    Cost Sharing (C)                     $      141,114     $             - $        -     XXXX


(A) The total costs claimed agree with the total expenditures reported on the Federal Cash
    Transactions Report - Federal Share of Net Disbursements as of December 31, 2001. The
    costs in the awardee’s accounting system could not readily be put into (or matched to) the
    NSF cost categories. Therefore, claimed costs reported above were taken directly from the
    awardee’s books of account and placed in the above categories according to the awardee’s
    account titles.

(B) The indirect cost allowance is at a predetermined fixed rate of 21.4 percent, to be applied to a
    direct cost base, which excludes participant support costs.




                                                   33
                                                                            SCHEDULE B-2


                            NORTHWEST INDIAN COLLEGE
                             BELLINGHAM, WASHINGTON

           NATIONAL SCIENCE FOUNDATION AWARD NO. DUE-0053303

                         SCHEDULE OF QUESTIONED COSTS

                  For the period September 1, 2000 to December 31, 2001


Note B-2a Salaries and Wages

The questioned salaries and wages of XXXX represents $14,838 of salary charges to the NSF
award included in our testing not adequately supported and the remaining XXXX of salaries
incurred which were not tested but were questioned because NWIC did not maintain adequate
support documentation for salary and wage costs. We were unable to apply alternative
procedures to satisfy ourselves that salaries and wages on the Schedule of Award Costs is
presented fairly. Our review of salary and wages charged to Grant No. DUE-0053303 included a
test of eleven individuals charged to this grant as follows:

               Date         Amount             Reason for Questioned Cost
              XXXX              $1,161 No time and effort support
              XXXX               1,161 No time and effort support
              XXXX                 424 Amount charged not supported
              XXXX               1,862 No time and effort support
              XXXX                 813 No time and effort support
              XXXX               1,741 No time and effort support
              XXXX                 774 No time and effort support
              XXXX               2,548 No time and effort support
              XXXX               1,001 No time and effort support
              XXXX               2,765 No time and effort support
              XXXX                 588 No time and effort support
                               $14,838

As shown above, the charges sampled revealed that activity reports or some other documentation
supporting the time and effort charged to the award in accordance with OMB Circular A-21,
Paragraph J.8 was not available. As a result, we have questioned $14,838 of salaries tested.

                                             34
According to NWIC personnel, prior to July 2001, NWIC did not require academic and contract
personnel to document charges to NSF grants. Alternative documentation was also unavailable
for review. In addition, because many of the same individuals that were found not to have
support for charges in the sample were also in the untested payroll charges, we have questioned
the remaining XXXX of salary and wage cost claimed.

Awardee Comments

The awardee did not respond specifically to the questioned costs.

Auditor’s Response

Although additional information was provided to the awardee identifying the individuals selected
for audit, the awardee did not respond. Accordingly, the questioned costs remain in the final
report.

Note B-2b Fringe Benefits

The XXXX questioned represents $1,319 of unallowable fringe benefits for interns and the
remaining XXXX of fringe benefits because the associated salary and wage costs were not
supported with adequate documentation and the awardee only had summary timesheets by year
showing a total fringe amount for the year without a breakdown of fringe benefit components.
We found that NWIC charged the following items to the NSF project:

                            Fringe benefits for interns   $    1,319

Awardee Comments

The awardee did not comment on the specific cost questioned.

Auditor’s Response

Because the awardee did not comment on the questioned costs, it remains questioned.

Note B-2c Permanent Equipment

The XX questioned represents $586 included in our testing, which was a portion of XXXXXX
paid to Xerox by the awardee and the remaining $255 claimed because of overall poor controls
and a lack of oversight on the grant costs. The awardee could not provide documentation to
support how this portion of the XXXXXXX benefited the NSF grant in accordance with OMB
Circular A-110, Subpart C, and 21(b) (1) through (7); therefore the $586 has been questioned.


                            Item Description              Amount
                            XXXXXXXXXX                    $   586
                                Total                     $   586



                                                35
Awardee Comments

The awardee did not comment on the specific cost questioned.

Auditor’s Response

Because the awardee did not comment on the questioned costs, it remains questioned.

Note B-2d Travel

The XXXX of travel expenses questioned represent $742 of travel charges included in our
testing that were not supported by documentation and the remaining XXXX of travel was
questioned because of overall poor controls and lack of oversight over the awardee’s claimed
costs. The awardee could not provide expense reports to support the following charges in
accordance with OMB Circular A-110, Subpart C, .21(b)(1) through (7):

                       Item Description                                    Amount
           XXXXXXXXXXXXXXXXXXXXXXXXXX                                    $     409
           XXXXXXXXXXXXXXXXX                                                   333
                                                                         $     742

Awardee Comments

The awardee did not comment on the specific cost questioned.

Auditor’s Response

Because the awardee did not comment on the questioned costs, it remains questioned.

Note B-2e Participant Support

The $16,000 questioned represents costs budgeted for participant support that the awardee’s
could not provide documentation supporting that the costs were expended on the intended
purposes.

Awardee Comments

The awardee did not comment on the specific cost questioned.

Auditor’s Response

Because the awardee did not comment on the questioned costs, it remains questioned.

Note B-2f Materials and Supplies

The XXXX questioned represents materials and supplies that consisted of a $178 charge
included in our testing for which the awardee could not provide adequate support. The following
item for $178 was questioned, because the awardee could not provide support showing how this

                                              36
item benefited the NSF grant, in accordance with OMB Circular A-110, Subpart C, .21(b)(1)
through (7):

                              Item Description             Amount
                              XXXXXXXX                 $       178
                                                       $       178

The remaining XXXX was questioned because of overall poor controls and a lack of oversight
on the costs incurred as a result of the problems noted during our audit.

Awardee Comments

The awardee did not comment on the specific cost questioned.

Auditor’s Response

Because the awardee did not comment on the questioned costs, it remains questioned.

Note B-2g Consultant Costs

The $18,865 questioned represents consultant costs, which were not tested, but questioned
because of overall poor controls and a lack of oversight on the costs incurred as a result of the
problems noted during our audit.

Awardee Comments

The awardee did not comment on the specific cost questioned.

Auditor’s Response

Because the awardee did not comment on the questioned costs, it remains questioned.

Note B-2h Other

The $30 questioned represents the remainder of “Other” costs. This amount was questioned
because of overall poor controls and a lack of oversight on all costs incurred by the awardee.

Awardee Comments

The awardee did not comment on the specific cost questioned.

Auditor’s Response

Because the awardee did not comment on the questioned costs, it remains questioned.




                                               37
Note B-2i Indirect Costs

The XXXX questioned represents $5,682 of indirect costs claimed applicable to the amounts
questioned during our detailed testing and the remaining XXXX was questioned because of
overall poor controls and lack of oversight on the costs. The NSF award included a fixed indirect
cost rate of 21.4 percent applied to direct costs less participant support costs. The 21.4 percent
rate applied to the costs questioned during our detailed testing less the questioned participant
support costs results in $5,682 questioned calculated as follows:

                        Costs Questioned during testing      $    26,553
                                                                  21.4%
                        Indirect Cost Questioned             $     5,682

Awardee Comments

The awardee did not comment on the specific cost questioned.

Auditor’s Response

Because the awardee did not comment on the questioned costs, it remains questioned.

Note B-2j Undocumented Costs

The $8,890 questioned represents undocumented costs that the awardee could not support. The
awardee’s accounting system showed that $268,594 had been charged to the accounting ledger
for this grant. However, the awardee received $277,484 of federal funds according to its FCTR
dated December 31, 2001. The awardee could not support the difference of $8,890. Therefore,
it has been questioned in accordance with OMB Circular A-110, Subpart C, .21, (b)(1) through
(7).

Awardee Comments

The awardee did not comment on the specific cost questioned.

Auditor’s Response

Because the awardee did not comment on the questioned costs, it remains questioned.

Note B-2k Cost Sharing

The awardee’s accounting system did not account for the $141,114 of required cost sharing nor
did it have an alternative method to account for the cost sharing. Because the grant period was
not yet completed, the awardee may incur the cost-sharing amount. However, the awardee is “at
risk” to not meet the cost sharing requirement, because it does not separately account for cost
sharing expenditures. During Fiscal Year 2002 (July 1, 2001-June 30, 2002), the Single Audit
also disclosed that the awardee did not have support for the cost sharing. (See Finding No. 1.)




                                               38
Awardee Comments

The awardee did not comment on the specific cost questioned.

Auditor’s Response

Because the awardee did not comment on the questioned costs, it remains questioned.




                                              39
                                                                                  SCHEDULE A-3

                                NORTHWEST INDIAN COLLEGE
                                 BELLINGHAM, WASHINGTON

        NATIONAL SCIENCE FOUNDATION AWARD NUMBER ESR-0086186

                                 SCHEDULE OF AWARD COSTS

                        for the period September 1, 2000 to August 31, 2001
                                             FINAL


                                                               (A)                    Schedule B
                  Cost                       Approved        Claimed     Questioned      Note
                Category                      Budget          Costs        Costs      Reference
        XXXXXXXX
        XXXXXXXXXXX                          XXXXXX      $     XXXX      $   XXXX     XXXXXX
        XXXXXXXXXX                             XXXX            XXXX          XXXX     XXXXXX
        XXXXXXXXXXXX                           XXXX            XXXX          XXXX     XXXXXX
        XXXXX                                  XXXX            XXXX          XXXX     XXXXXX
        XXXXXXXXXXXXX                           XXX            XXXX          XXXX     XXXXXX
        XXXXXXXXXXX                            XXXX               X             X
        XXXXXXXXXX                             XXXX            XXXX          XXXX     XXXXXX
        XXXXXXXXXX                               XXXX             X             X
        XXXXXXXXXXXX                             XXXX          XXXX          XXXX

        XXXXXXXXXX                               XXXX               X            X    XXXXXX

        XXXXXXXXXXXXXXXXXX                           -         XXXX          XXXX     XXXXXX
           Total direct and indirect costs   $ 100,000   $     62,773    $   62,773

        Costs sharing                        $     -0-   $         -0-   $      -0-

(A) The total costs claimed agree with the total expenditures reported on the Federal Cash
    Transactions Report - Federal Share of Net Disbursements as of December 31, 2001. The
    costs in the awardee’s accounting system could not readily be put into (or matched to) the
    NSF cost categories. Therefore, claimed costs reported above were taken directly from the
    awardee’s books of account and placed in the above categories according to the awardee’s
    account titles.

(B) In lieu of an indirect cost allowance at a fixed predetermined rate, this grant includes a fixed
     dollar amount of $12,528 for indirect costs.




                                                  40
                                                                              SCHEDULE B-3


                             NORTHWEST INDIAN COLLEGE
                              BELLINGHAM, WASHINGTON

            NATIONAL SCIENCE FOUNDATION AWARD NO. ESR-0086186

                          SCHEDULE OF QUESTIONED COSTS

                     for the period September 1, 2000 to August 31, 2001


Note B-3a Salaries and Wages

The XXXX questioned represents $7,738 of salary charges to the grant that we tested and found
no support, and the remaining XXXX of salary and wage costs claimed that were not tested but
questioned because of overall NWIC did not maintain adequate support documentation for salary
and wage costs. We were unable to apply alternative procedures to satisfy ourselves that salary
and wage costs claimed on the Schedule of Award Costs is presented fairly. Our review of
salary and wages charged to Grant No. ESR-0086186 included a test of four individuals charged
to this grant, as follows:

                   Date         Amount          Reason for Questioned Cost
                XXXX                $4,805 No time and effort or other support
                XXXX                 1,052 No time and effort or other support
                XXXX                   393 No time and effort or other support
                XXXX                 1,488 No time and effort or other support
                Total               $7,738

According to OMB Circular A-21, Paragraph J.8, salary costs charged to grants must be
supported by some form of documentation showing that the costs were incurred on the awards.
Because the salaries were not adequately supported, the salaries tested of $7,738 have been
questioned.

Awardee Comments

The awardee did not respond specifically to the questioned costs.

Auditor’s Response

Although additional information was provided to the awardee identifying the individuals selected
for audit, the awardee did not respond. Accordingly, the questioned costs remain in the final
report.


                                               41
Note B-3b Fringe Benefits

We have questioned the fringe benefits claimed of $8,933 because the associated salary and
wages were not supported with adequate documentation and the awardee only had summary
timesheets by year showing a total fringe amount for the year without a breakdown of the fringe
benefit components.

Awardee Comments

The awardee did not comment on the specific cost questioned.

Auditor’s Response

Because the awardee did not comment on the questioned costs, it remains questioned.

Note B-3c Permanent Equipment

The $1,329 questioned represents costs expended on permanent equipment by NWIC for which
the awardee could not provide adequate documentation supporting that this equipment benefited
the NSF grant. We sampled selected transactions and found that the awardee could not provide
supporting documentation for the following item:

                          Item Description                Amount
                          XXXXXXXX                        $  1,329
                                                          $  1,329

The above item appears to be general-purpose equipment, which should not be charged directly
to the NSF grant. Because the awardee could not provide documentation to support this item as
benefiting the NSF grant, the $1,329 has been questioned in accordance with OMB Circular A-
110, Subpart C, .21(b)(1) through (7).

Awardee Comments

The awardee did not comment on the specific cost questioned.

Auditor’s Response

Because the awardee did not comment on the questioned costs, it remains questioned.




                                              42
Note B-3d Travel

The XXXX questioned represents $2,325 of travel charges to the grant included in our testing
that were not supported by documentation and the remaining XXXX, which was questioned
because of overall poor controls and a lack of oversight on the costs incurred. The awardee
could not provide expense reports that supported that the following trips benefited the NSF grant
in accordance with OMB Circular A-110, Subpart C, .21(b)(1) through (7) and we questioned the
following amount of $2,325:

                              Item Description           Amount
                             XXXXX                      $     261
                             XXXXX                          2,064
                                                        $   2,325
Awardee Comments

The awardee did not comment on the specific cost questioned.

Auditor’s Response

Because the awardee did not comment on the questioned costs, it remains questioned.

Note B-3e Materials and Supplies

The XXXX questioned represents $802 questioned included in our testing for which the awardee
could not provide adequate support in accordance with OMB Circular A-110, Subpart C,
.21(b)(1) through (7), and the remaining $639 was questioned because of overall poor controls
and a lack of oversight on the awardee’s claim. Because the Awardee could not provide
documentation showing how these items benefited the NSF grant, we questioned the following
items included in the $802:

                        Item Description                      Amount
                        XXXXXXXXXXXXXXXX                     $    393
                        XXXX                                      250
                        XXXXXX                                     53
                        XXXXXXXX                                   56
                        XXXXXXXXXXX                                50
                                                             $    802

Awardee Comments

The awardee did not comment on the specific cost questioned.

Auditor’s Response

Because the awardee did not comment on the questioned costs, it remains questioned.



                                               43
Note B-3f Consultant Costs

The XXXX questioned represents $1,717 of consultant costs included in our testing for which
the awardee could not support that the costs benefited the NSF grant and the remaining costs of
XX have been questioned because of overall poor controls and a lack of oversight on the costs
incurred because of the problems noted during the audit. Following are the items making up the
$1,717 questioned:

                       Item Description                       Amount
                       XXXXXXXXXXXXXXXX                     $    1,217
                       XXXXXXXXXXXXXX                              500
                                                            $    1,717

Because the awardee could not provide documentation to support the above costs as benefiting
the NSF grant, the $1,717 is questioned in accordance with OMB Circular A-110, Subpart C, .21
(b)(1) through (7).

Awardee Comments

The awardee did not comment on the specific cost questioned.

Auditor’s Response

Because the awardee did not comment on the questioned costs, it remains questioned.

Note B-3g Indirect Costs

Although the grant contained a fixed indirect cost amount, the awardee did not claim any indirect
costs. Therefore, the $12,528 was not considered or questioned.

Note B-3h Undocumented Costs

The $14,311 questioned represents undocumented costs that the awardee could not support. The
awardee’s accounting system showed that $48,462 was incurred on this grant. However, the
awardee claimed a total of $62,773 of federal funds as shown on its FCTR dated September 30,
2001.     The awardee could not support the difference of $14,311 ($62,773-$48,462).
Accordingly, the $14,311 has been questioned in accordance with OMB Circular A-110, Subpart
C, .21, (b)(1) through (7).

Awardee Comments

The awardee did not comment on the specific cost questioned.

Auditor’s Response

Because the awardee did not comment on the questioned costs, it remains questioned.



                                               44
                                                                      SCHEDULE C-1

                NORTHWEST INDIAN COLLEGE
   SUMMARY SCHEDULES OF AWARDS AUDITED AND AUDIT RESULTS

                       September 1, 1997 to December 31, 2001

Summary of Awards Audited

    Award Number                  Award Period                  Audit Period
DUE-9752076                  09/01/97 – 08/31/00         09/01/97 – 8/31/00
DUE-0053303                  09/01/00 – 08/31/03         09/01/00 – 12/31/01
ESR-0086186                  09/01/00 – 08/31/01         09/01/00 – 08/31/01

    Award Number                 Type of Award              Award Description
DUE-9752076                 Grant                        Environmental Technology.
DUE-0053303                 Grant                        Natural Resources Manage.
ESR-0086186                 Grant                        Rural Systemic Initiative

Summary of Questioned and Unresolved Costs by Award

 NSF Award           Award                     Questioned             Unsupported
   Number            Budget    Claimed Costs     Costs                   Costs
DUE-9752076        $   775,049 $     775,049 $   214,306             $     596,277
DUE-0053303            589,349       277,484      46,781                   230,703
ESR-0086186            100,000        62,773      28,232                    34,551
Total              $ 1,464,398 $ 1,115,306 $     289,319*            $     861,531

* This amount includes $35,534 of cost sharing which is not included in claimed costs.

Summary of Questioned Cost by Explanation

                                                       Internal
           Condition                 Questioned        Control          Non-
                                    Cost Amount       Weaknesses      Compliance
Unsupported Salaries                   $ 33,775          Yes             Yes
Participant Support Re-budgeted            67,500        Yes             Yes
Unexpended Costs                           26,681        Yes             Yes
Documentation not Available                32,501        Yes             Yes
Unexpended Cost Sharing                    35,534        Yes             Yes
Unsupported fringe benefits                66,959        Yes             Yes
Indirect Costs applicable to
questioned costs                             28,182       Yes              Yes
Total Questioned Costs                  $   291,132


                                            45
Summary of Internal Control Weaknesses and Non-Compliance Issues




                                        Non-Compliance or                  Material,
           Condition                     Internal Control            Reportable or Other
Lack of Adequate Documentation   Non-Compliance & Internal Control   Material Weakness
Could not Track Expenditures     Non-Compliance & Internal Control   Material Weakness
Segregation of Duties            Non-Compliance & Internal Control   Reportable Condition
Bank Reconciliation              Non-Compliance & Internal Control   Reportable Condition
Publications                     Non-Compliance
Property Management              Non-Compliance
Procurement Standards            Non-Compliance




                                          46
                                                                   SCHEDULE D

                         NORTHWEST INDIAN COLLEGE
                          BELLINGHAM, WASHINGTON

  SUMMARY OF AWARD COSTS BUDGETED, CLAIMED, AND QUESTIONED



                            Award               Cost*       Questioned       At-risk
                            Budget             Claimed        Costs           Cost
NSF Award Number                                                             Sharing

DUE-9752076                   $775,049          $775,049      $775,049        $        -
 Cost Share                     35,534                 -        35,534                 -

DUE-0053303                    589,343           277,484       277,484
 Cost Share                    141,114                 -             -        $141,114

ESR-0086186                    100,000             62,773        62,773
 Cost Share                          -                  -             -                -
NSF Costs                   $1,464,392         $1,115,306    $1,115,306
Cost Sharing                $ 149,648          $        -    $ 35,534         $141,114

 * The claimed amount equals the amount of Federal funds claimed on the Federal Cash
   Transaction Reports for each grant through December 31, 2001.




                                          47
                            NORTHWEST INDIAN COLLEGE
                           NOTES TO FINANCIAL SCHEDULES

                           September 1, 1997 to December 31, 2001

Note 1: Summary of Significant Accounting Policies

        Accounting Basis

        The accompanying financial schedules have been prepared in conformity with National
        Science Foundation (NSF) instructions. Schedules A-1 and A-2 have been prepared
        from the reports submitted to NSF and information obtained from the accounting
        records maintained for the grant award by NWIC. The basis of accounting utilized in
        preparation of these reports differs from generally accepted accounting principles. The
        following information summarizes these differences:

        A.   Equity

             Under the terms of the award, all funds not expended according to the award
             agreement and budget at the end of the award period are to be returned to NSF.
             Therefore, the awardee does not maintain any equity in the award and any excess
             cash received from NSF over final expenditures is due back to NSF.

        B.   Equipment

             Equipment is charged to expense in the period during which it is purchased
             instead of being recognized as an asset and depreciated over its useful life. As a
             result, the expenses reflected in the Schedule of Award Costs include the cost of
             equipment purchased during the period rather than a provision for depreciation.

             Except for awards with nonstandard terms and conditions, title to equipment
             under NSF awards vests in the recipient, for use in the project or program for
             which it was acquired, as long as it is needed. The recipient may not encumber the
             property without approval of the federal awarding agency, but may use the
             equipment for its other federally sponsored activities, when it is no longer needed
             for the original project.

        C.   Inventory

             Minor materials and supplies are charged to expense during the period of
             purchase. As a result, no inventory is recognized for these items in the financial
             schedules.

        D.   Federal Income Tax

             As a tribally chartered institution, NWIC has no Federal income tax liability.



                                             48
                          NORTHWEST INDIAN COLLEGE
                         NOTES TO FINANCIAL SCHEDULES

                         September 1, 1997 to December 31, 2001


Note 2: NSF Cost Sharing and Matching

        The following represents the cost-sharing requirements and actual cost share as of
        December 31, 2001:

                                               Actual                       Actual            Actual
                             Cost               Cost        Unsupported    Supported        Cost Share
                            Share              Share            Cost         Cost          Over/(Under)
                           Required           Claimed          Share         Share           Required

Award No. DUE- 9752076        $ 35,534    $             0   $     35,534   $           0    $    (35,534)

Award No. DUE-0053303           141,114                 0        141,114               0        (141,114)

Award No. ESR-0086186                 0                 -                              -

       Total                  $ 176,648   $             0   $    176,648   $           0   $    (176,648)


See Finding and Recommendation No. 1 on Financial Management in the Independent Auditor’s
Report on Compliance with Laws and Regulations and Internal Control Over Financial
Reporting.

Note 3: Indirect Cost Rates

      Award Number            Indirect Cost Rate                   Base
    DUE-9752076                     21.4%        Direct Costs less participant support
    DUE-0053303                     21.4%        Direct Costs less participant support
    ESR-0086186                    $12,528       Fixed Dollar Amount




                                                  49
         APPENDIX A

AWARDEE’S COMMENTS TO REPORT
        HOW TO CONTACT
THE OFFICE OF INSPECTOR GENERAL


             Internet
           www.oig.nsf.gov

            E-mail Hotline
             oig@nsf.gov

             Telephone
            703-292-7100

               Toll-free
            1-800-428-2189

                Fax
            703-292-9158

                  Mail
      Office of Inspector General
      National Science Foundation
   4201 Wilson Boulevard, Suite 1135
         Arlington, VA 22230
